                                                U.S. DEPARTMENT OF
                               HOUSING AND URBAN DEVELOPMENT
                                        OFFICE OF INSPECTOR GENERAL




                                                  August 20, 2013
                                                                                                  MEMORANDUM NO:
                                                                                                       2013-LA-1804


Memorandum
TO:             Dane M. Narode
                Associate General Counsel for Program Enforcement, CACC




FROM:           Tanya E. Schulze
                Regional Inspector General for Audit, Los Angeles Region, 9DGA

SUBJECT:        Final Civil Action: Settlement of Allegations of Failing To Fully Comply With
                HUD Neighborhood Stabilization Program Requirements and Submitting False
                Certifications to HUD


                                               INTRODUCTION

The U.S. Department of Housing and Urban Development (HUD), Office of Inspector General
(OIG), assisted the HUD Office of Program Enforcement in conducting a civil fraud review of
alleged false claims submitted to HUD regarding City              employee labor costs charged to
the City’s Neighborhood Stabilization Program (NSP) grant. The false claims allegations
stemmed from a                  OIG audit report 1 outlining details of ineligible employee labor
costs. As a result of the combined efforts, the City agreed to pay $7,500 as settlement on behalf
of                  and                   . The objective of our review was to determine whether
          and             submitted false certifications attesting to ineligible employee labor
costs.

                                    METHODOLOGY AND SCOPE

To assist the HUD Office of General Counsel, we provided our audit work papers and other
relevant documents. Specifically, we reviewed and provided the City’s NSP grant agreement,
journal vouchers related to labor charges, HUD payment system draws, employee timesheets,
signed statements, and other relevant documents. We also discussed the elements of the case
with the HUD Office of General Counsel and provided information as requested.

1
 Audit report               , “The City                 , Needs To Improve Its Procedures for Administering Its
Neighborhood Stabilization Program Grant,” dated

                                                   Office of Audit (Region 9)
                                 611 West Sixth Street, Suite 1160, Los Angeles, CA 90017
                                          Phone (213) 894-8016, Fax (213) 894-8115
                              Visit the Office of Inspector General Web site at www.hudoig.gov.
                                        BACKGROUND

The Neighborhood Stabilization Program 1 (NSP1) was authorized under Division B, Title III, of
the Housing and Economic Recovery Act of 2008 and provided grants to all States and selected
local governments on a formula basis. The Act appropriated $3.92 billion in NSP1 funds for
emergency assistance for the redevelopment of abandoned and foreclosed-upon residential
properties. NSP1 was established for the purpose of stabilizing communities that had suffered
from foreclosures and abandonment.

The City           was awarded approximately $9.6 million in NSP1 grant funds. The City’s
Neighborhood Services Department was in charge of administering its NSP1 activities.
        worked as the neighborhood services director, and                      worked as the
housing and revitalization director. Both              and           had oversight and
responsibility for staff that worked on activities related to the NSP1 grant.

The grant agreement, approved by HUD, stated that NSP grant funds could be used to pay
eligible costs arising from eligible uses incurred after the NSP approval date provided the
activities to which such costs were related were carried out in compliance with all applicable
requirements. The grant agreement also stated, “The Grantee is advised that providing false,
fictitious or misleading information with respect to NSP Grant Funds may result in criminal,
civil, or administrative prosecution under 18 USC [United States Code] §1001, 18 USC §1343,
31 USC §3729, 31 USC §3801 or another applicable statute.”

                                   RESULTS OF REVIEW

Based on the audit report, issued on February 8, 2011, OIG issued a referral to the HUD Office
of General Counsel on May 25, 2011, for action under the Program Fraud and Civil Remedies
Act, based on analysis and facts as determined by the audit. Specifically, the referral detailed a
$22,344 adjusting journal entry charge to the City’s NSP1 grant. The documentation retained by
the City to support the adjusting entry included a statement signed by                   and
                   , claiming that the adjustment was made because work assignments for certain
City employees were changed in July 2009 from part time to full time on the NSP1 grant
activities. However, we determined that the labor charges were questionable as certain
employees did not work full time on the NSP1 grant during the period in question. During the
audit,            and            provided a signed statement to OIG auditors, asserting that
certain employees did not use timecards during the period in question. However, we determined
that this assertion was not correct, indicating that         and            were aware that the
labor charges were not accurate. Based on the journal entries and signed statement on full-time
status, the City was reimbursed $22,344 as part of a larger draw that was submitted to HUD on
July 1, 2010.

On November 29, 2012, HUD filed separate complaints against                      and
      . HUD contended that (1)            and             were aware that certain employees of
the City’s Housing and Rehabilitation Department did not work full time on the NSP1 grant
during the months of July, August, and September 2009; (2)            and             provided
the City with erroneous information, including signed statements indicating that labor cost for




                                                2
these employees should be paid entirely from NSP1 grant funds; and (3) this caused the City to
make a false claim to HUD for NSP1 grant funds on or about July 1, 2010.

On February 21, 2013, HUD entered into settlement agreements 2 with                       and
                                                 3
                  , each agreeing to pay $3,750, bringing the total settlement to $7,500. The
Office of the City Attorney, City         , agreed to represent both            and            .
The City agreed to pay the entire civil penalty on their behalf, since they acted within the scope
of their employment in causing the false claim issue.

                                           RECOMMENDATIONS

We recommend that HUD’s Office of General Counsel, Office of Program Enforcement

1A.      Agree to allow HUD OIG to post the settlement of $7,500 to HUD’s Audit Resolution
         and Corrective Actions Tracking System as funds to be put to better use.




2
  The settlement was the result of a desire to seek a satisfactory resolution without the expense and uncertainty of
further litigation. The settlement agreements do not constitute admissions of liability, fault, or wrongdoing.
3
  The $7,500 was paid by the City            on behalf of the subjects since they acted within the scope of their
employment in causing the false claim at issue.




                                                           3
